                                                 NATIONAL SCIENCE FOUNDATION 

                                                  OFFICE OF INSPECTOR GENERAL 

                                                    OFFICE OF INVESTIGATIONS 


                                            CLOSEOUT MEMORANDUM

Case Number: AI0070058                                                                      Page 1 of 1




                 NSF OIG received an allegation that a Subject l violated the terms of the Conflict-of­
         Interests and Confidentiality statement for NSF Panelists (NSF Form 1230P) and the Proposal
         Review Foml (NSF Form 1) in providing copies of the proposals given to her to review to two
         research assistants 2 and
                               .            .
                                   an administrative coordinator. 3

                 The Subject acknowledged having disclosed portions of proposals she was asked to
         review to those individuals and explained she did so because of a physical disability that makes
         typing and other tasks challenging, and because she did not think NSF's confidentiality policy
         included technical assistants: She said, in the future, she would ask explicit permission from
         program officers before seeking assistance from technical staff.

                 We sent the Subject a Questionable Administrative Practice letter reminding her of her
         obligation to comply with NSF confidentiality regulations. Accordingly, this case is closed with
         no further action taken.




         2




NSF OIG Form 2 (11/02)
